No.

In The Supreme Court of the United States
PHILIP E. BERGER, in his official capacity as President Pro Tempore of the North
Carolina Senate; and TIMOTHY K. MOORE, in his official capacity as Speaker of the
North Carolina House of Representatives,
v.

Applicants,

NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
Plaintiff Respondents,
THE NORTH CAROLINA STATE BOARD OF ELECTIONS; and DAMON CIRCOSTA, in his
official capacity as Chair of the North Carolina State Board of Elections,
Defendant Respondents,
&
REPUBLICAN NATIONAL COMMITTEE; NATIONAL REPUBLICAN SENATORIAL COMMITTEE;
NATIONAL REPUBLICAN CONGRESSIONAL COMMITTEE; DONALD J. TRUMP FOR
PRESIDENT, INC.; and NORTH CAROLINA REPUBLICAN PARTY,
Intervenor Defendants.
CERTIFICATE OF SERVICE

I, David H. Thompson, hereby certify that I am a member of the Supreme Court
Bar, and that I have this 27th day of October 2020, caused a copy of the Emergency
Application for Stay Pending Appeal to be served via electronic mail, and via
overnight mail to anyone who does not consent to service via electronic mail, to:
Marc E. Elias
MElias@perkinscoie.com
Uzoma N. Nkwonta
UNkwonta@perkinscoie.com
Lalitha D. Madduri
LMadduri@perkinscoie.com
Jyoti Jasransaria
JJasrasaria@perkinscoie.com
Perkins Coie LLP
700 13th St. N.W., Suite 800
Washington, D.C. 20005-3960
Burton Craige
BCraige@pathlaw.com
Narenda K. Ghosh
NGhosh@pathlaw.com
Paul E. Smith
PSmith@pathlaw.com
Patterson Harkavy LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517

Bobby R. Burchfield
bburchfield@kslaw.com
Matthew M. Leland
mleland@kslaw.com
King & Spalding LLP
1700 Pennsylvania Avenue, N.W.
Suite 200
Washington, D.C. 20006
R. Scott Tobin
stobin@taylorenglish.com
Taylor English Duma LLP
4208 Six Forks Road, Suite 1000
Raleigh, North Carolina 27609
Counsel for Intervenor Defendants

Counsel for Plaintiff Respondents
Alexander McC. Peters
apeters@ncdoj.gov
Terrence Steed
tsteed@ncdoj.gov
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
Counsel for Defendant Respondents

____________________________
David H. Thompson

